APPENDIX

APPENDIX

A-1 - Sixth Circuit Opinion Affirming Denial of Habeas Petition,
Wooten v. Warren, No. 19-1437 (6th Cir. May 14, 2020)……….............APP 001
A-2 - District Court Opinion Denying Habeas Petition, Wooten v. Trierweiler,
No. 17-cv-10014 (E.D. Mich. Apr. 17, 2019)……………………...……….APP 019
A-3 - State of Michigan Court of Appeals Decision Denying Appeal of Right,
People v. Wooten, No. 314315 (Mich. App. Ct. June 26, 2014)...............APP 049

Case: 19-1437

Document: 25-2

Filed: 05/14/2020

Page: 1

NOT RECOMMENDED FOR PUBLICATION
File Name: 20a0272n.06
Case No. 19-1437
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JOHN OLIVER WOOTEN,
Petitioner-Appellant,
v.
PATRICK WARREN, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

FILED
May 14, 2020
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE
UNITED STATES DISTRICT
COURT FOR THE EASTERN
DISTRICT OF MICHIGAN

OPINION

BEFORE: GIBBONS, McKEAGUE, and WHITE, Circuit Judges.
McKEAGUE, Circuit Judge. On August 5, 2011, John Wooten shot two people outside
a gentlemen’s club in Detroit, killing one of them. He claims he shot them in self-defense. Wooten
was charged with murder and assault with intent to commit murder. He was tried twice on those
charges. His first trial ended in a mistrial after the prosecution asked a police officer a question
that the court deemed improper. But the court did not bar reprosecution. Wooten was then
convicted at the second trial.
After the state appellate courts affirmed his convictions, Wooten petitioned for a writ of
habeas corpus. He argued that (a) having a second trial violated his Double Jeopardy rights, and
(b) there was constitutionally insufficient evidence at his second trial. The district court denied
Wooten’s petition. We AFFIRM.

APP 001

Case: 19-1437

Document: 25-2

Filed: 05/14/2020

Page: 2

Case No. 19-1437, Wooten v. Warren
I. BACKGROUND
On August 5, 2011, a little before 2:00 AM, John Wooten shot and killed Alfonso Thomas
outside the Pretty Woman Lounge in Detroit, Michigan. He also shot Omar Madison in the back,
although Madison lived to tell about it. Wooten fled the scene and threw his weapon—a .357
revolver—into the bushes. Although a warrant for his arrest was issued in August, Wooten was
not arrested until December 2011, four months after the shooting. The prosecution and Wooten
offered different versions of what exactly happened on August 5. According to the prosecution,
Wooten was making threatening statements in the bar that night and tried to bring a gun inside;
after the bar manager threw him out, Wooten turned around and shot two people. According to
Wooten, he was acting in self-defense—returning fire after Thomas shot at him. Wooten was tried
twice. The first trial ended with a mistrial, the second with a conviction.
A. First Trial
Wooten was originally charged with first- and second-degree murder, assault with intent
to commit murder, and two firearms charges. His first trial was in July 2012. It ended in a mistrial
before the prosecution could rest its case. Before the mistrial motion, the prosecution had relied in
large part on two eyewitnesses. The first was Omar Madison, the Pretty Woman bar manager
Wooten had shot in the back. The second was Anthony Gary, the bar promoter whose gun the other
victim, Alfonso Thomas, had grabbed shortly before the shooting. Both testified that Wooten was
the one who shot Thomas. Both also testified that nobody else fired a shot that night.
The prosecution’s case suffered two major blows. First, the prosecution was prohibited
from asking Madison about a prior incident involving Wooten that could have helped prove
premeditation or intent.

-2-

APP 002

Case: 19-1437

Document: 25-2

Filed: 05/14/2020

Page: 3

Case No. 19-1437, Wooten v. Warren
Second, the prosecution was prohibited from going into a different line of questioning on
Fifth Amendment grounds. The prosecution had called the homicide investigator in charge of the
case. By this point, Wooten’s lawyer had been asking questions about the gun that Thomas was
holding when the shooting occurred—presumably to help build Wooten’s self-defense argument.
So the prosecutor asked the investigator whether Wooten had ever come forward to explain to the
police that he had acted in self-defense. Wooten’s lawyer objected, on grounds that the question
violated his client’s Fifth Amendment rights, and the court sustained the objection. The parties
then convened for a sidebar discussion, which does not appear in the trial record.
Later, a similar question from the prosecutor led to a mistrial. On redirect examination of
the homicide investigator, after extensive discussion of the second gun, the prosecutor asked the
following question: “In this case would you have enjoyed talking to the defendant?” Wooten’s
lawyer objected, the court sustained, and the parties held a sidebar conference.
The judge scolded the prosecutor for discussing Wooten’s failure to come forward to the
police. The judge had told the prosecutor at the earlier sidebar conference that he could not go into
this line of inquiry. The prosecution claimed that the question was in response to the questions
about the second gun.
Wooten moved for a mistrial. Defense counsel argued that the case should be dismissed
with prejudice, which would bar a retrial. He contended that the prosecutor’s question was an
intentional act of prosecutorial misconduct, citing Oregon v. Kennedy, 456 U.S. 667 (1982). The
prosecutor argued in opposition.
The judge granted the mistrial. In doing so, the judge talked at length on several topics.
First, the judge flatly rejected the prosecution’s substantive arguments that the question was
proper. Next, the judge went on to discuss the state of the prosecution’s case. The case against

-3-

APP 003

Case: 19-1437

Document: 25-2

Filed: 05/14/2020

Page: 4

Case No. 19-1437, Wooten v. Warren
Wooten was going poorly, in his opinion, particularly on the first-degree murder charge. In fact,
the judge said, if Wooten had moved for a directed verdict on the first-degree murder charge, that
motion would have been granted.
However, the judge did not find that the prosecutor intended to provoke a mistrial. The
judge stated:
Sometimes when we wind up getting involved in the give and take of a trial, the
heat of combat overwhelms our rational decision making processes, and I think that
may very well have been the situation today.
The judge acknowledged that his ruling benefited the prosecution. But he “hope[d] and
pray[ed] that that’s not what the reasoning was of the prosecution to have done what it did. I’m
giving him the benefit of the doubt.” The parties then scheduled the new trial.
B. Second Trial
The second trial was held in November 2012. At the beginning of the trial, Wooten’s
lawyer moved to reconsider the issue of whether the retrial should be barred, specifically
mentioning that he was seeking to preserve his rights for appeal. But the court denied the motion
and continued with the trial.
The prosecution’s key witness was Omar Madison, the bar manager and shooting victim.
He testified to two incidents: the shooting and an earlier incident involving Wooten at the Pretty
Woman. In the earlier incident, according to Madison, a few weeks before the shooting, Wooten
threw something in the bar. It hit Madison, although Madison acknowledged that Wooten said he
had not intended to hit him. Still, Madison told Wooten he had to go, and he had the bouncer escort
Wooten out. As soon as Wooten got outside the door, he started shooting up in the air. (Madison
was inside when this happened and the door was closed, so he didn’t actually see Wooten shoot.)

-4-

APP 004

Case: 19-1437

Document: 25-2

Filed: 05/14/2020

Page: 5

Case No. 19-1437, Wooten v. Warren
Later that night, Wooten pulled up in front of Madison in the parking lot. He confronted
Madison and asked if they had a problem. According to Madison, he could see that Wooten was
holding a revolver. The two talked their issues over and then went their separate ways. Madison
did not report the incident to the police.
On August 5, 2011, the night of the shooting, Madison testified that he had heard Wooten
and his friend “C” inside the bar making what Madison perceived as threatening comments—
things like “We run this bar. I stick this bar up.”
Madison said that Wooten and C left the bar for a little while, and when they came back,
they refused to be searched, even though it was bar policy to search everyone for weapons before
entry. Madison approached them, reached for Wooten, and felt Wooten’s gun in his front
waistband (a revolver). Madison told Wooten that he could not bring the gun into the bar, at which
point Wooten became obnoxious. Wooten then seemed to reach for his gun, so Madison grabbed
him and held the gun. C then grabbed Madison to try to pull him off Wooten, and Anthony Gary
(the promoter) in turn grabbed C.
Madison testified that the four of them eventually made their way outside the bar. After a
little while, Madison said to Alfonso Thomas: “Boo [Thomas’s nickname], you got him. I’ll be
letting him go. I’m about to let him go.” Thomas had with him a .380 semiautomatic handgun,
which Madison later learned was Anthony Gary’s gun. Madison wanted to make sure that Thomas
could deter Wooten from firing the revolver and hurting somebody.
According to Madison, he let Wooten go, and Wooten started to take a couple of steps
away. Madison turned to go back in the bar. Then Wooten started shooting, and he hit Madison
from behind. Madison was able to turn and see Wooten shoot Thomas. He never saw Thomas
shoot at Wooten.

-5-

APP 005

Case: 19-1437

Document: 25-2

Filed: 05/14/2020

Page: 6

Case No. 19-1437, Wooten v. Warren
The prosecution offered several other eyewitnesses, who testified to Wooten’s shooting at
Madison and Thomas. The prosecution also offered evidence to rebut the claim that a second gun
was fired that night—that is, that Thomas fired at Wooten, prompting him to return fire in selfdefense. Investigating officers testified that they found no evidence that a second gun was fired.
Anthony Gary, who owned the gun in question, testified that he examined the gun later that night
and found that it was still fully loaded.
Wooten also testified in his own defense. He started with the incident a few weeks before
the shooting. Apparently, he had thrown his hands up in the air and a drink had slipped out,
accidentally hitting Madison. Madison approached him, and Wooten explained that he had not
meant to hit him. Not wanting an altercation, Wooten claimed he left of his own accord. Once he
walked outside the bar, Wooten heard gunshots go off—but they weren’t fired by him, because at
that time he didn’t have his gun.
Next, the night of the shooting. Wooten testified that he had his gun with him that night—
a .357 revolver—because it was a rough neighborhood. But when he first entered the bar, the
bouncer let him in with his gun. Later in the night, Wooten left the bar to go smoke weed and
returned after about half an hour. When he went to go back in the bar, the bouncer gestured at
Madison, who was right behind them counting the proceeds from that night. Wooten took this
gesture to mean that the bouncer could not let him into the bar with the gun while the boss was
watching, so the two made some small talk to wait until Madison was not paying attention.
Wooten said he was already heading out the door when Madison grabbed him from behind,
lifting him up. Wooten heard Madison say “Pull your gun. Pull your gun. Get ready. Are you
ready?” Wooten testified that he heard the safety of a gun click and, after Madison released him,
saw Thomas with a gun pointed at him. And then, according to Wooten, Thomas fired at him. So

-6-

APP 006

Case: 19-1437

Document: 25-2

Filed: 05/14/2020

Page: 7

Case No. 19-1437, Wooten v. Warren
Wooten pulled out his gun and returned fire. He realized he hit Thomas, so he got scared and took
off running. Wooten hid in an alley and threw his gun in the bushes. He did not talk to the police,
because he had contacted some lawyers who had told him not to say anything to the police until
he had retained a lawyer.
C. Verdict, Direct Appeal, and Proceedings in the District Court
The jury convicted Wooten of second-degree murder, assault with intent to commit murder,
and two firearms offenses. On direct appeal, Wooten argued that (1) the court should have barred
the second trial on Double Jeopardy grounds, (2) there was insufficient evidence at the second
trial, and (3) the prosecutor committed misconduct at closing argument. The Michigan Court of
Appeals affirmed on all grounds. The Michigan Supreme Court denied leave to appeal, after
hearing oral argument.
In January 2017, Wooten filed a pro se petition for a writ of habeas corpus in the Eastern
District of Michigan. He raised the same three issues as he did in his direct appeal. The district
court then appointed counsel, and counsel filed a supplemental brief addressing the claims. The
district court denied the petition and issued a certificate of appealability only on the Double
Jeopardy claim. This court then expanded the COA to include Wooten’s sufficiency argument.
II. ANALYSIS
A. Standard of Review
This court reviews the district court’s legal conclusions de novo and its factual findings for
clear error. Davis v. Lafler, 658 F.3d 525, 530 (6th Cir. 2011) (en banc). The district court applies
the Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA). Under AEDPA, a district
court can grant a petition for a writ of habeas corpus only if the state-court adjudication resulted
in a decision that was “contrary to, or involved an unreasonable application of, clearly established

-7-

APP 007

Case: 19-1437

Document: 25-2

Filed: 05/14/2020

Page: 8

Case No. 19-1437, Wooten v. Warren
Federal law, as determined by the Supreme Court of the United States” or if the decision “was
based on an unreasonable determination of the facts in light of the evidence presented in the State
court proceeding.” 28 U.S.C. § 2254(d). Before analyzing the merits, we first address Wooten’s
arguments that AEDPA deference does not apply in his case.
B. Does AEDPA Deference Apply?
1. Plain-Error Review and AEDPA Deference
Wooten first argues that the state court should not receive AEDPA deference because it
erroneously analyzed the Double Jeopardy issue under a plain-error standard of review. AEDPA
deference applies only when the state court decided the issue “on the merits.” 28 U.S.C. § 2254(d).
Under Sixth Circuit precedent, AEDPA deference “applies to a state court’s plain-error analysis if
it ‘conducts any reasoned elaboration of an issue under federal law.’” Stewart v. Trierweiler, 867
F.3d 633, 638 (6th Cir. 2017) (quoting Fleming v. Metrish, 556 F.3d 520, 531 (6th Cir. 2009)).
But Wooten argues that this rule applies only to cases where the state court properly applied plainerror review. And here, Wooten claims, the court applied plain-error review only because it
incorrectly held that Wooten had failed to preserve the Double Jeopardy issue in the trial court.
We conclude that AEDPA deference applies. Under Fleming, we apply deference to the
state court’s plain-error merits analysis even if the court’s underlying procedural reasoning is
incorrect. 556 F.3d at 532. In Fleming, the state court applied plain-error review because it found
that the claim had been procedurally defaulted. See id. We disagreed with the state court’s
procedural-default reasoning, but we applied AEDPA deference anyway. Id. Citing principles of
comity, finality, and federalism, we explained that “[t]he state court’s substantive reasoning does
not simply vanish along with its erroneous procedural-default determination. Nor does AEDPA.”
Id.

-8-

APP 008

Case: 19-1437

Document: 25-2

Filed: 05/14/2020

Page: 9

Case No. 19-1437, Wooten v. Warren
Here, the state court held that Wooten had not preserved his Double Jeopardy argument.
The district court concluded that this preservation ruling was incorrect, and on appeal the state is
no longer arguing that Wooten failed to preserve his claim. But the state appellate court examined
the merits anyway, and it even determined that there was no constitutional error—“[t]his is not a
case where the state court simply assumed, without deciding, that there was a constitutional error
and then proceeded to determine that the error was not plain.” Id. Under Fleming, AEDPA
deference applies to this adjudication.
2. Did the State Court Adjudicate the Double-Jeopardy Issue “On the Merits”?
Second, Wooten contends that the state court’s adjudication of the Double Jeopardy issue
was unreasonable because it did not mention every basis for finding that the prosecutor intended
to provoke a mistrial. Here, the Michigan Court of Appeals dismissed Wooten’s Double Jeopardy
argument based on its conclusion that the prosecutor’s question was constitutionally permissible.
But it did not address the secondary argument that, even if the question was proper in isolation, it
still showed the prosecutor’s intent to provoke a mistrial because the question violated a clear order
from the trial court. However, we find that it did not need to do so in order to receive AEDPA
deference.
Again, for AEDPA deference to apply, the state court must have adjudicated the federal
claim “on the merits.” 28 U.S.C. § 2254(d). When a federal claim has been presented to a state
court, there is a rebuttable presumption that the state court adjudicated the claim on the merits.
Johnson v. Williams, 568 U.S. 289, 292–93 (2013); Harrington v. Richter, 562 U.S. 86, 99 (2011).
The presumption applies “when a state-court opinion addresses some but not all of a defendant’s
claims.” Williams, 568 U.S. at 298. The presumption can be rebutted only “when there is reason

-9-

APP 009

Case: 19-1437

Document: 25-2

Filed: 05/14/2020

Page: 10

Case No. 19-1437, Wooten v. Warren
to think some other explanation for the state court’s decision is more likely.” Richter, 562 U.S. at
99–100.
The Richter/Williams presumption applies to a state court’s opinion that decides a federal
claim but does not explicitly address every relevant fact or argument. See Lee v. Comm’r, Ala.
Dep’t of Corr., 726 F.3d 1172, 1210–12 (11th Cir. 2013). “It makes no sense to say that a state
court decision is entitled to AEDPA deference if the opinion fails to contain discussion at all of a
claim but is entitled to no deference if it contains some but less than complete discussion.” Id. at
1212.
Here, AEDPA deference applies. Under Williams and Richter, we presume that the state
court adjudicated the federal claim on the merits. And here, the state court explicitly resolved
Wooten’s Double Jeopardy argument. The Kennedy goaded-mistrial rule involves examining all
the relevant circumstances, but that doesn’t mean the court must explicitly mention every relevant
circumstance in its opinion. See id. And Wooten has not pointed us to anything to rebut the
Richter/Williams presumption. Accordingly, AEDPA deference applies to the state court’s
decision here.
C. Was the State Court’s Determination Contrary to or an Unreasonable Application of
Oregon v. Kennedy?
Under AEDPA, the court cannot grant habeas relief unless the state court’s decision was
“contrary to, or involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States[.]” 28 U.S.C. § 2254(d)(1). That means
Wooten must point to the holdings—not dicta—of Supreme Court precedents in making his claim
for relief. See Ross v. Petro, 515 F.3d 653, 660 (6th Cir. 2008).

- 10 -

APP 010

Case: 19-1437

Document: 25-2

Filed: 05/14/2020

Page: 11

Case No. 19-1437, Wooten v. Warren
Wooten argues that the facts of his case establish that the prosecutor intended to provoke a
mistrial. Therefore, according to Wooten, the Michigan Court of Appeals issued a decision that
was an unreasonable application of Oregon v. Kennedy, 456 U.S. 667 (1982).1 Under Kennedy,
when a mistrial is granted on the defendant’s motion, reprosecution will be barred if the prosecutor
“intended to ‘goad’ the defendant into moving for a mistrial.” Id. at 676. The intent standard “calls
for the [trial] court to make a finding of fact.” Id. at 675. The prosecutor’s intent is inferred “from
objective facts and circumstances” of the trial. Id.
Here, Wooten’s Kennedy-based argument turns on one question from the prosecutor to the
officer in charge of the investigation: “Would you have enjoyed talking to the defendant?” Two
issues follow from that: (1) Was the substance of the question constitutionally improper? (2) Did
the context in which the question was asked demonstrate that the prosecutor intended to provoke
a mistrial?
With regard to the substance of the question, a key issue on direct appeal was whether
using Wooten’s prearrest silence violated his constitutional right against self-incrimination. In this
appeal, Wooten does not make any argument that, under current law, asking about Wooten’s
prearrest silence was unconstitutional. See Salinas v. Texas, 570 U.S. 178, 181 (2013) (plurality);
Abby v. Howe, 742 F.3d 221, 228 (6th Cir. 2014). Instead, he argues that the question probed
further than prearrest silence, implicating both his postarrest silence and his failure to testify at the
first trial.

Wooten also argues that the “manifest necessity” standard should apply, rather than Kennedy, because he did not
consent to the mistrial. See Tinsley v. Million, 399 F.3d 796, 812 (6th Cir. 2005). But he framed his argument to the
Michigan Court of Appeals solely in terms of the standard set forth in Kennedy, arguing only that the trial court erred
in finding that the prosecutor did not intend to provoke a mistrial. Indeed, he appeared to concede that trial counsel
should have done more if he wanted to withdraw his motion for mistrial and continue with the trial: “The Defendant
should have retracted his motion for a mistrial upon hearing that [the court would have granted a motion for directed
verdict], but in good faith did not.” At oral argument, Wooten also pointed us to United States v. Dinitz, 424 U.S. 600
(1976). But that pre-Kennedy case did not even involve prosecutorial misconduct, see id. at 601–05, which is the entire
basis for Wooten’s Double Jeopardy argument here.
1

- 11 -

APP 011

Case: 19-1437

Document: 25-2

Filed: 05/14/2020

Page: 12

Case No. 19-1437, Wooten v. Warren
But the Michigan Court of Appeals reasonably found that the context reveals that the
prosecutor’s question dealt only with prearrest silence. Regarding postarrest silence, the first time
the prosecutor brought up Wooten’s failure to come forward to claim self-defense, he explicitly
said, “I’m not concerned with anything after he was arrested[.]” And later, when the prosecutor
asked, “Would you have enjoyed talking to the defendant?” it was in the context of the
investigation of whether a second gun had been fired—nobody had ever mentioned anything about
what happened to Wooten after he was arrested. Regarding Wooten’s failure to testify, asking a
police officer whether she would have “enjoyed talking to the defendant” does not necessarily
implicate the defendant’s failure to testify in his defense. If Wooten were to testify in the first trial,
then the attorneys would have been the ones asking him questions—so he would not have been
“talking to” the police officer at all.
We also consider the context of the question. Wooten argues that the prosecutor’s question
demonstrated his intent to provoke a mistrial based on the context in which it was asked—
particularly (a) the poor state of the prosecution’s case and (b) the trial court order not to go into
that line of inquiry.
Whether a prosecutor intended to provoke a mistrial motion is a question of fact. Kennedy,
456 U.S. at 675. Even on direct appeal, these factual findings are reviewed for clear error. United
States v. Foster, 945 F.3d 470, 474 (6th Cir. 2019). The standard is even higher in the habeas
context. State court findings of fact are “presumed to be correct.” 28 U.S.C. § 2254(e)(1); see also
Wei v. Burt, No. 18-2438, 2019 WL 1531516, at *2 (6th Cir. Mar. 26, 2019) (applying Section
2254(e) presumption to a state court finding that the prosecutor did not intend to provoke a
mistrial). The petitioner can rebut that presumption, but only upon a showing of error by clear and
convincing evidence. 28 U.S.C. § 2254(e)(1). And a habeas court will not overturn a state-court

- 12 -

APP 012

Case: 19-1437

Document: 25-2

Filed: 05/14/2020

Page: 13

Case No. 19-1437, Wooten v. Warren
adjudication unless it “resulted in a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the State court proceeding.” 28 U.S.C. § 2254(d)(2).
“[A] state-court factual determination is not unreasonable merely because the federal habeas court
would have reached a different conclusion in the first instance.” Wood v. Allen, 558 U.S. 290, 301
(2010). And special deference is given to the trial court’s credibility determinations, particularly
when made on the basis of oral (as opposed to documentary) evidence. See Bose Corp. v.
Consumers Union of U.S., Inc., 466 U.S. 485, 500 (1984).
Here, the state trial court credited the prosecutor and believed that he did not intend to
provoke a mistrial. The court made that ruling based on its observation of a live court proceeding,
and the ruling was made very shortly after the events themselves happened. There are other factors
supporting the state court’s finding. The prosecutor argued against Wooten’s mistrial motion. See
United States v. White, 914 F.2d 747, 752 (6th Cir. 1990) (noting that the prosecutor “resisted and
apparently was surprised by the granting of the motion for a mistrial”). The mistrial motion was
based on a single improper question. See Foster, 945 F.3d at 474–75 (affirming a finding that the
prosecutor lacked intent to provoke a mistrial despite a “litany” of constitutional violations). And
the improper question came well after the original Fifth Amendment ruling. See State v. Yetman,
516 S.W.3d 33, 43 (Tex. Ct. App. 2016) (in a case where the court affirmed a finding of
prosecutorial intent to provoke a mistrial, the improper question came immediately after the court
ruled that the prosecutor’s line of argument was off-limits).
The trial judge was the one who observed the demeanor of the lawyers and was in a much
better position to determine what the prosecutor intended in that moment. The Kennedy standard
is an “exacting” one in general. Phillips v. Court of Common Pleas, 668 F.3d 804, 811 (6th Cir.
2012). Combine that with AEDPA deference and you have an incredibly high hurdle, especially

- 13 -

APP 013

Case: 19-1437

Document: 25-2

Filed: 05/14/2020

Page: 14

Case No. 19-1437, Wooten v. Warren
when it comes to credibility determinations. Wooten has not cleared that hurdle. We find that
Wooten has not established that the state court’s ruling in his case was contrary to or an
unreasonable application of Oregon v. Kennedy.
D. Sufficiency of the Evidence
Wooten also argues that there was constitutionally insufficient evidence to convict him.
This claim can be analyzed in two parts. First, Wooten argues that the prosecution did not meet its
burden in disproving his self-defense theory. Second, he argues that there was insufficient evidence
of his mental state to convict him of second-degree murder and assault with intent to commit
murder.
It is difficult to prevail on sufficiency claims on habeas review. This is because there are
two layers of deference. First, there is the deferential standard articulated in Jackson v. Virginia,
443 U.S. 307 (1979). Under Jackson, we defer to the trier-of-fact’s verdict by reviewing the
evidence in the light most favorable to the prosecution and asking whether any rational trier of fact
could have found the essential elements of the crime beyond a reasonable doubt. Id. at 319. Next,
“deference should be given to the Michigan Court of Appeals’ consideration of the trier-of-fact’s
verdict, as dictated by AEDPA.” Tucker v. Palmer, 541 F.3d 652, 656 (6th Cir. 2008). In other
words, “a federal habeas court must ask whether the state court decision reflected an unreasonable
application of the Jackson standard to the facts of the case.” Brian R. Means, Postconviction
Remedies § 31.2 (July 2019).
Wooten’s sufficiency argument goes to his convictions for second-degree murder and
assault with intent to commit murder. Under Michigan law, the elements of second-degree murder
are: “(1) a death, (2) caused by an act of the defendant, (3) with malice, and (4) without justification
or excuse.” People v. Roper, 777 N.W.2d 483, 490 (Mich. Ct. App. 2009) (per curiam) (internal

- 14 -

APP 014

Case: 19-1437

Document: 25-2

Filed: 05/14/2020

Page: 15

Case No. 19-1437, Wooten v. Warren
quotation marks and citation omitted). “The elements of assault with intent to commit murder are:
(1) an assault, (2) with an actual intent to kill, (3) which, if successful, would make the killing
murder.” People v. Brown, 703 N.W.2d 230, 236 (Mich. Ct. App. 2005) (internal quotation marks,
citations, and footnote omitted). As a defense to those crimes, a defendant can claim self-defense—
that is, that he “honestly and reasonably believe[d] that the use of deadly force [was] necessary to
prevent the imminent death of or imminent great bodily harm to himself or herself[.]” Mich. Comp.
Laws § 780.972(1)(a). Once a defendant presents a prima facie case of self-defense, then the
burden of proof shifts to the prosecution to disprove the self-defense claim beyond a reasonable
doubt. See People v. Denson, 902 N.W.2d 306, 315 (Mich. 2017).
The government argues (and the district court found) that Wooten’s self-defense argument
was not cognizable in habeas because it was based on an affirmative defense, not a substantive
element of Michigan criminal law. See People v. Reese, 815 N.W.2d 85, 101 n.76 (Mich. 2012)
(“An affirmative defense, like self-defense, ‘admits the crime but seeks to excuse or justify its
commission. It does not negate specific elements of the crime.’” (quoting People v. Dupree, 788
N.W.2d 399, 405 n.11 (Mich. 2010))). Wooten counters that, because of Michigan’s burdenshifting framework, the prosecution must disprove self-defense as part of proving the elements of
the substantive offense. But in any event, we need not decide whether the claim is cognizable,
because we conclude that there was constitutionally sufficient evidence to find that (a) Wooten did
not act in self-defense, and (b) Wooten acted with a mental state sufficient to satisfy the elements
of both second-degree murder and assault with intent to commit murder.
1. Self-Defense
Wooten claims there was not enough evidence to conclude that he did not act in selfdefense. He points to evidence that the Michigan Court of Appeals allegedly “ignored.” He

- 15 -

APP 015

Case: 19-1437

Document: 25-2

Filed: 05/14/2020

Page: 16

Case No. 19-1437, Wooten v. Warren
contends that the court ignored the witness admissions that Thomas had grabbed Gary’s gun off
Gary’s hip. And he contends that the court ignored evidence that Madison told Thomas to grab a
gun. Wooten also points us to evidence indicating that Gary “surreptitiously” took his gun away
from the crime scene and then didn’t tell the police about it. Finally, Wooten points us to the
bouncer’s testimony that Wooten wasn’t making any threatening gestures and that, during the
tussle, other bar patrons were yelling “We got him. We got him. We got him.” All this shows,
according to Wooten, that he fired at Thomas and Madison only because he feared for his life.
But this was not the only possible interpretation of the events. The jury could have given
more credit to the account offered by one of the victims, Omar Madison. See O’Hara v. Brigano,
499 F.3d 492, 499–500 (6th Cir. 2007). According to Madison, Wooten and his friend were making
threatening comments while Wooten was inside the bar. Further, Madison testified that Wooten
was refusing to be searched and became obnoxious once Madison called him out for trying to bring
a gun into the bar. According to Madison, Wooten seemed to be reaching for his gun—that’s when
Madison grabbed him. And Madison said he yelled for Thomas simply so he could make sure
Wooten didn’t hurt anybody. Finally, there was testimony that Thomas was not pointing the gun
at Wooten, and Wooten took a few steps away from everyone at the bar before turning around and
shooting. Drawing on this, the jury could well have concluded that Madison was simply doing his
job as bar manager in securing an unruly customer and that Wooten did not have a reasonable fear
of imminent death or great bodily harm. Thus, there was enough evidence for a rational trier of
fact to infer that Wooten did not act in self-defense.
2. Mental State
Wooten also argues that he did not have a sufficient mental state to be convicted of murder
or assault with intent to commit murder. For mental state, Michigan second-degree murder requires

- 16 -

APP 016

Case: 19-1437

Document: 25-2

Filed: 05/14/2020

Page: 17

Case No. 19-1437, Wooten v. Warren
a finding of malice. Roper, 777 N.W.2d at 490. “Malice is defined as the intent to kill, the intent
to cause great bodily harm, or the intent to do an act in wanton and wilful [sic] disregard of the
likelihood that the natural tendency of such behavior is to cause death or great bodily harm.” Id.
(internal quotation marks and citation omitted). In contrast, assault with intent to commit murder
requires an “actual intent to kill.” Brown, 703 N.W.2d at 236–37. On the question of actual intent
to kill, the jury
may, and should take into consideration the nature of the defendant’s acts
constituting the assault; the temper or disposition of mind with which they were
apparently performed, whether the instrument and means used were naturally
adapted to produce death, his conduct and declarations prior to, at the time, and
after the assault, and all other circumstances calculated to throw light upon the
intention with which the assault was made.
People v. Taylor, 375 N.W.2d 1, 8 (Mich. 1985) (per curiam) (internal quotation mark and citation
omitted).
Here, there is enough evidence to infer both malice and an actual intent to kill. On the
malice question, Michigan juries can infer malice from the defendant’s use of a deadly weapon.
See Stewart v. Wolfenbarger, 595 F.3d 647, 658 (6th Cir. 2010) (collecting cases). Wooten
admitted he fired the gun, and he does not claim it discharged accidentally.
On the actual intent to kill question, the jury could find that Wooten was the aggressor and
that he bore a grudge against Madison. There is testimony supporting each of the following facts:
(1) Wooten reacted angrily to being thrown out of the bar after the drink-throwing incident and
even threatened Madison with a gun; (2) Wooten and his friend were making threatening
comments on the night of the shooting even before the altercation; (3) Wooten initiated the conflict
by refusing to be searched and then reaching for his weapon; and (4) Wooten did not shoot
immediately, but instead took a few steps away from the building and then turned to shoot. In light

- 17 -

APP 017

Case: 19-1437

Document: 25-2

Filed: 05/14/2020

Page: 18

Case No. 19-1437, Wooten v. Warren
of this evidence, we conclude that Wooten has not met his heavy burden in establishing his right
to habeas relief on the grounds of insufficiency of the evidence.
III. CONCLUSION
For these reasons, we AFFIRM the judgment of the district court.

- 18 -

APP 018

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1949

Page 1 of 30

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
JOHN WOOTEN,
Petitioner,
Civil No. 17-10014

v.

Hon. Terrence G. Berg
TONY TRIERWEILER,
Respondent.
OPINION AND ORDER DENYING THE PETITION FOR
WRIT OF HABEAS CORPUS, GRANTING IN PART AND
DENYING IN PART A CERTIFICATE OF APPEALABILITY,
AND GRANTING LEAVE TO APPEAL
IN FORMA PAUPERIS
John Wooten, (“petitioner”), confined at the Bellamy Creek
Correctional Facility in Ionia, Michigan, seeks the issuance of a
writ of habeas corpus pursuant to 28 U.S.C. § 2254. In his
application, filed both pro se and with the assistance of counsel,
Benton C. Martin of the Federal Defender’s Office, petitioner
challenges his conviction for second-degree murder, Mich. Comp.
Laws § 750.317, assault with intent to commit murder, Mich. Comp.
Laws § 750.83, one count of felony-firearm, second offense, Mich.
Comp. Laws § 750.227b, and one count of felon in possession of a

APP 019

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1950

Page 2 of 30

firearm, Mich. Comp. Laws § 750.224f. For the reasons stated
below, the application for a writ of habeas corpus is DENIED WITH
PREJUDICE.
I.

Factual Background
On August 5, 2011, there was a shooting at a nightclub in

Detroit, Michigan. One employee of the club, Alfonso Thomas, was
killed, and another, Omar Madison, was shot in the back and
injured. Four months later, Petitioner was arrested and charged
with first-degree murder, assault with intent to commit murder,
and two firearms offenses in connection with the shooting.
Petitioner’s first trial took place in July, 2012, and ended in a
mistrial, which is the subject of petitioner’s first claim. Petitioner
was convicted at re-trial of the lesser included offense of seconddegree murder and guilty as charged on the remaining offenses.
Petitioner’s conviction was affirmed on appeal. People v.
Wooten, No. 314315, 2014 WL 2931934 (Mich. Ct. App. June 26,
2014); lv. den. 870 N.W. 2d 924 (Mich. 2015) (unpublished table
decision).
Petitioner seeks habeas relief on the following grounds:
I.

The state [court’s] decision was an objectionably
unreasonable application of clearly established
federal law where they held that there was no issue
in the claim that Judge Callahan correctly ordered a
mistrial after the prosecutor [asked] a key witness
about the defendant’s silence but erred by not finding
2

APP 020

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1951

Page 3 of 30

that the prosecutorial misconduct was intentional
and that the mistrial should have been granted with
prejudice, barring retrial as the defendant’s retrial
violated the bar against Double Jeopardy.
II.

The state [court’s] decision was an objectionably
unreasonable application of clearly established law
where they held that there was no issue in the claim
that the jury verdicts of second-degree murder and
assault with intent to murder are based on
insufficient evidence and must be overturned.

III.

The state [court’s] decision was an objectionably
unreasonable application of clearly established
federal law where they held that there was no issue
in the claim that the prosecutor committed
misconduct when, during closing argument, he
argued that the defendant must be guilty since he did
not turn himself in or provide information to law
enforcement about his involvement in the crime.

IV.

The state [court’s] decision was an objectionably
unreasonable application of clearly established
federal law where they held that there was no issue
in the claim that the trial court erred by not granting
a mistrial with prejudice, in light of the prosecutor’s
actions during Defendant Wooten’s first trial.
(A) The prosecution is prohibited in its case in
chief … from eliciting testimony from a police
witness regarding the defendant’s pre-arrest
silence and/or failure to come forward to explain a
claim of self-defense.
(B) Prearrest silence is inadmissible as
substantive evidence of guilt and should be
disallowed as evidence in the prosecution’s proof[s]
in mere anticipation of a self-defense claim.

3

APP 021

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1952

Page 4 of 30

(C) Judge Callahan correctly ordered a mistrial
after the prosecutor asked a key witness about the
defendant’s silence, but erred by not finding that
the prosecutorial misconduct was intentional and
that the mistrial should have been granted with
prejudice, barring retrial as defendant’s retrial
violated the bar against double jeopardy.
II.

Legal Standard
Title 28 U.S.C. § 2254(d), as amended by the Antiterrorism and

Effective Death Penalty Act of 1996 (“AEDPA”), Pub. L. No. 104132, 110 Stat. 1214, imposes the following standard of review for
habeas cases:
An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the judgment
of a State court shall not be granted with respect to any
claim that was adjudicated on the merits in State court
proceedings unless the adjudication of the claim —
(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme
Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.
A state court decision is “contrary to” clearly established
federal law if the state court arrives at a conclusion opposite to that
reached by the Supreme Court on a question of law, or if the state
court decides a case differently than the Supreme Court has on a
set of materially indistinguishable facts. Williams v. Taylor, 529
4

APP 022

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1953

Page 5 of 30

U.S. 362, 405–06 (2000). An “unreasonable application” occurs
when “a state-court decision unreasonably applies the law of [the
Supreme Court] to the facts of a prisoner’s case.” Id. at 409. A
federal habeas court may not “issue the writ simply because that
court concludes in its independent judgment that the relevant
state-court decision applied clearly established federal law
erroneously or incorrectly.” Id. at 411.
A “federal court’s collateral review of a state-court decision
must be consistent with the respect due state courts in our federal
system.” Miller-El v. Cockrell, 537 U.S. 322, 340 (2003). Thus, the
AEDPA “imposes a highly deferential standard for evaluating
state-court rulings, and demands that state-court decisions be
given the benefit of the doubt.” Renico v. Lett, 559 U.S. 766, 773
(2010). A “state court’s determination that a claim lacks merit
precludes federal habeas relief so long as fairminded jurists could
disagree on the correctness of the state court’s decision.”
Harrington v. Richter, 562 U.S. 86, 101 (2011).
The Supreme Court has emphasized “that even a strong case
for relief does not mean the state court’s contrary conclusion was
unreasonable.” Id. at 102. Furthermore, pursuant to section
2254(d), “a habeas court must determine what arguments or
theories supported or . . . could have supported, the state court’s
decision; and then it must ask whether it is possible fairminded
5

APP 023

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1954

Page 6 of 30

jurists could disagree that those arguments or theories are
inconsistent with the holding in a prior decision” of the Supreme
Court. Id. Habeas relief is not appropriate unless each ground that
supported the state-court’s decision is examined and found to be
unreasonable under the AEDPA. See Wetzel v. Lambert, 565 U.S.
520, 525 (2012). “If this standard is difficult to meet, that is because
it was meant to be.” Harrington, 562 U.S. at 102.
Although 28 U.S.C. § 2254(d), as amended by the AEDPA,
does not completely bar federal courts from re-litigating claims that
have previously been rejected in the state courts, it preserves the
authority for a federal court to grant habeas relief only “in cases
where there is no possibility fairminded jurists could disagree that
the state court’s decision conflicts with” the Supreme Court’s
precedents. Id. Indeed, section 2254(d) “reflects the view that
habeas corpus is a guard against extreme malfunctions in the state
criminal justice systems, not a substitute for ordinary error
correction through appeal.” Id. at 102–03. A “readiness to attribute
error [to a state court] is inconsistent with the presumption that
state courts know and follow the law.” Woodford v. Viscotti, 537 U.S.
19, 24 (2002). Therefore, to obtain habeas relief in federal court, a
state prisoner is required to show that the state-court’s rejection of
his claim “was so lacking in justification that there was an error
well understood and comprehended in existing law beyond any
6

APP 024

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1955

Page 7 of 30

possibility for fairminded disagreement.” Harrington, 562 U.S. at
103.
A state court’s factual determinations are presumed correct
on federal habeas review. See 28 U.S.C. § 2254(e)(1). A habeas
petitioner may rebut this presumption of correctness only with
clear and convincing evidence. Id. Moreover, for claims that were
adjudicated on the merits in state court, habeas review is “limited
to the record that was before the state court.” Cullen v. Pinholster,
563 U.S. 170, 181 (2011).
The Court notes that the Michigan Court of Appeals reviewed
and rejected petitioner’s first and third claims under a plain error
standard on the ground that petitioner failed to preserve the issues
as a constitutional claim at the trial court level. The AEDPA
deference applies to any underlying plain-error analysis of a
procedurally defaulted claim. See Stewart v. Trierweiler, 867 F.3d
633, 638 (6th Cir. 2017).
III. Discussion
a. Procedural Default
Respondent contends that petitioner’s first and third claims
are procedurally defaulted because he failed to preserve the issues
by objecting at the trial court level.
With regard to petitioner’s first claim, defense counsel moved
for the court to dismiss the case with prejudice based on the
7

APP 025

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1956

Page 8 of 30

prosecutor’s alleged misconduct at the time he moved for a mistrial.
Before petitioner’s second trial began, defense counsel again asked
the judge to reconsider the denial of his motion to dismiss the case
with prejudice.
Regarding petitioner’s third claim, defense counsel may have
objected off the record because a sidebar conference was conducted
after the prosecutor made his comments.
The rule of procedural default is “a matter of comity between
the federal and state courts and should not be applied to preclude
federal courts from hearing federal constitutional claims when to
do so does no disrespect to the state courts and their procedural
rules.” Walker v. Engle, 703 F. 2d 959, 967 (6th Cir. 1983) (internal
citations omitted). Thus, when a state court applies a procedural
bar that has no foundation either in the record or under state law,
the federal courts need not honor that bar. Id. In the present case,
it appears that petitioner adequately preserved his first claim, thus,
it is not clear why the Michigan Court of Appeals found this claim
to be unpreserved. Petitioner’s third claim may also have been
adequately preserved by the sidebar conference, although this is
less clear.
In any event, procedural default is not a jurisdictional bar to
review of a habeas petition on the merits. See Trest v. Cain, 522
U.S. 87, 89 (1997). “[F]ederal courts are not required to address a
8

APP 026

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1957

Page 9 of 30

procedural-default issue before deciding against the petitioner on
the merits.” Hudson v. Jones, 351 F. 3d 212, 215 (6th Cir.2003)
(citing Lambrix v. Singletary, 520 U.S. 518, 525 (1997)). “Judicial
economy might counsel giving the [other] question priority, for
example, if it were easily resolvable against the habeas petitioner,
whereas the procedural-bar issue involved complicated issues of
state law.” Lambrix, 520 U.S. at 525.
Petitioner’s first and third claims are meritless; regardless of
whether the claims are procedurally defaulted, they fail on their
own merit.
b. Exhaustion Issues
Respondent contends that petitioner’s fourth claim is
unexhausted because he never presented it to the state courts,
although respondent further argues that the claim should be denied
on the merits.
A state prisoner seeking federal habeas relief must first
exhaust his or her available state court remedies before raising a
claim in federal court. 28 U.S.C. § 2254(b) and (c). See Picard v.
Connor, 404 U. S. 270, 275–78 (1971). In Michigan, a petitioner is
required to present each ground to both Michigan appellate courts
before seeking federal habeas corpus relief. See Baldwin v. Reese,
541 U.S. 27, 29 (2004); Mohn v. Bock, 208 F.Supp.2d 796, 800 (E.D.
Mich. 2002).
9

APP 027

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1958

Page 10 of 30

A habeas petitioner’s failure to exhaust his or her state court
remedies does not deprive a federal court of its jurisdiction to
consider the merits of the habeas petition. Granberry v. Greer, 481
U.S. 129, 131 (1987). An unexhausted claim may be adjudicated by
a federal court on habeas review if the unexhausted claim is
without merit, such that addressing the claim would be efficient
and would not offend the interest of federal-state comity. Prather v.
Rees, 822 F. 2d 1418, 1422 (6th Cir. 1987); see also 28 U.S.C. §
2254(b)(2) (habeas petition may be denied on the merits despite the
failure to exhaust state court remedies). A federal court should
dismiss a non-federal or frivolous claim on the merits to save the
state courts the useless review of meritless constitutional claims.
See Cain v. Redman, 947 F. 2d 817, 820 (6th Cir. 1991).
Petitioner’s fourth claim is a rehash of the first and third
claims he raises, claims he raised on his appeal of right in the state
courts. Regardless of whether petitioner’s fourth claim is
exhausted, it is without merit.
c. Plaintiff’s claims
Claim # 1: Double Jeopardy
Petitioner first argues that his Fifth Amendment right
against being placed in double jeopardy was violated when the
judge permitted the prosecutor to re-try petitioner after the judge
declared a mistrial at petitioner’s first trial. Petitioner contends
10

APP 028

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1959

Page 11 of 30

that the judge should have dismissed the case with prejudice
because the prosecutor through his misconduct intentionally
provoked defense counsel into requesting a mistrial.
The Michigan Court of Appeals rejected petitioner’s claim at
length:
At the first trial, the officer-in-charge, LaTonya Brooks,
testified during cross-examination that she was not
aware before trial that a second gun had been “present
and had been pulled” by Alfonso Thomas, the deceased
victim. During redirect examination, the prosecutor
attempted to rehabilitate Brooks by asking questions
prompting answers to the effect that there was no
evidence of a second gun at the scene of the shooting that
would have directed the investigation toward Anthony
Gary’s pistol. The prosecutor then asked, “In this case,
would you have enjoyed talking to the [d]efendant?”
Defendant immediately objected, and an on-the-record
sidebar conference was held at which the prosecutor
explained that he was attempting to rebut defendant’s
theory that Thomas fired Gary’s semiautomatic pistol,
which had not been tested by or turned into police,
toward defendant, causing defendant to fire back in selfdefense. Defendant moved for a mistrial, arguing that
the question violated his Fifth Amendment right against
compelled self-incrimination, and that the prosecution
deliberately asked the improper question so that
defendant’s forthcoming motion would be granted and
the prosecution “would have a second strike” at the case.
The prosecution responded that impeaching a defendant
with evidence of his prearrest silence was permissible
where “it would have been natural for a defendant to
come forward.” Because defendant implied, in the course
of cross-examining Brooks, that she failed to obtain
relevant facts about Gary’s gun from Gary and Omar
11

APP 029

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1960

Page 12 of 30

Madison, defendant opened the door to the suggestion
that defendant was equally capable of providing Brooks
with that information, the prosecution argued.
The trial court found that the facts did not create a
situation in which it would have been natural for
defendant to come forward because the “charges brought
against the defendant were probably almost
instantaneous, and then he was not ... found until
December 3, 2011, which was almost ... four months
later.” The judge granted defendant’s motion for a
mistrial without prejudice, explaining:
Sometimes when we wind up getting involved in the
give and take of a trial, the heat of combat
overwhelms our rational decision making
processes, and ... that may very well have been the
situation today. I don’t believe that the last
question that was posed to [Brooks] was directly
intended to impeach the credibility of the
defendant. As I said, even though [defendant] had
not even testified as yet, or even made an election
in that regard, or was consciously thought of by the
prosecution as calling into question the defendant’
right to remain silent guaranteed to him under the
Fifth Amendment to the Constitution. So, I’m not
going to dismiss this case with prejudice.
The trial court did not clearly err when it found that the
prosecutor did not intend to create the conditions
sufficient to justify declaration of a mistrial. Defendant’s
argument to the contrary is premised on the theory that
the “first trial was not going well” for the prosecution
because it “had no idea what its own witnesses were
going to say” and the police “had not ... investigated the
evidence found at the scene, including an empty gun
holster.” In an effort to buy more time, defendant
argues, the prosecutor deliberately asked Brooks a
question, concerning defendant’s failure to come
forward during the investigation, that violated
12

APP 030

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1961

Page 13 of 30

defendant’s constitutional right against compelled selfincrimination.
On appeal, the prosecution argues that the question was
not designed to draw a motion for a mistrial, and further
that the question did not violate defendant’s
constitutional rights because it concerned his prearrest
silence. “No person ... shall be compelled in any criminal
case to be a witness against himself.” US Const, Am V;
Const 1963, art 1, § 17. This privilege is violated when
the prosecution comments on a defendant’s postarrest,
post-Miranda silence. Doyle v. Ohio, 426 U.S. 610, 611;
96 S Ct 2240; 49 L.Ed.2d 91 (1976); People v. Borgne,
483 Mich. 178, 186–187; 768 NW2d 290 (2009).
However, a defendant’s prearrest silence, as well as his
silence after arrest but before he receives Miranda
warnings, may be used against him because the “use of
a defendant’s silence only deprives a defendant of due
process when the government has given the defendant a
reason to believe both that he has a right to remain
silent and that his invocation of that right will not be
used against him.” Fletcher v. Weir, 455 U.S. 603, 606–
607; 102 S Ct 1309; 71 L.Ed.2d 490 (1982); Jenkins v.
Anderson, 447 U.S. 231, 240; 100 S Ct 2124; 65 L.Ed.2d
86 (1980)(“[N]o governmental action induced [the
defendant] to remain silent before arrest.”); Borgne, 483
Mich. at 187–188.
“Neither the Fifth Amendment nor the Michigan
Constitution preclude[s] the use of prearrest silence for
impeachment purposes.” People v. Clary, 494 Mich. 260,
266; 833 NW2d 308 (2013) (internal punctuation
omitted). “[W]here a defendant has received no Miranda
warnings, no constitutional difficulties arise from using
the defendant’s silence before or after his arrest as
substantive evidence unless there is reason to conclude
that his silence was attributable to the invocation of the
defendant’s Fifth Amendment privilege.” People v.
13

APP 031

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1962

Page 14 of 30

Solmonson, 261 Mich. App 657, 665; 683 NW2d 761
(2004).
Defendant appears to take for granted the fact that the
prosecutor violated his right against compelled selfincrimination, citing case law holding that a retrial is
barred if a defendant’s motion for a mistrial is prompted
by prosecutorial misconduct, but offering no authority to
support his position that the prosecutor’s question to
Brooks—“In this case, would you have enjoyed talking
to the [d]efendant?”—actually constituted misconduct or
was contrary to case law interpreting the Fifth
Amendment and its counterpart in the Michigan
Constitution. “An appellant may not merely announce
his position and leave it to this Court to discover and
rationalize the basis for his claims, nor may he give only
cursory treatment with little or no citation of supporting
authority.” People v. Payne, 285 Mich. App 181, 195; 774
N.W. 2d 714 (2009).
Because the prosecutor’s question referred to
defendant’s failure to present investigators with an
explanation that he acted in self-defense, that is, before
he was arrested or received Miranda warnings, and
because there was no indication that he was invoking
his Fifth Amendment right to silence, evidence of
defendant’s prearrest silence was admissible as
substantive evidence of his guilt, subject to the Michigan
Rules of Evidence. People v. Hackett, 460 Mich. 202, 214;
596 N.W. 2d 107 (1999) (“The issue of prearrest silence
is one of relevance.”); Solmonson, 261 Mich. App at 665.
Defendant’s failure to come forward was especially
relevant following defendant's cross-examination of
Brooks wherein the implication of his line of questions
was that defendant was falsely accused as the result of
an inept police investigation that failed to uncover the
gun that was fired toward defendant. Because the
prosecutor’s question was proper, the question was not
misconduct, and, therefore, there was no basis upon
14

APP 032

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1963

Page 15 of 30

which to grant defendant’s motion for a mistrial with
prejudice.
People v. Wooten, 2014 WL 2931934, at * 2–4 (internal footnote
omitted).
When a criminal defendant moves for a mistrial, the Double
Jeopardy Clause does not bar a retrial. See Oregon v. Kennedy, 456
U.S. 667, 673 (1982). However, when the prosecutor’s conduct that
gave rise to the defendant’s motion for a mistrial was intended by
the prosecutor “to provoke the defendant into moving for a
mistrial,” the defendant “may invoke the bar of double jeopardy in
a second effort to try him.” Id. at 679. Nonetheless, the standard for
determining whether the prosecutor’s actions were intended to goad
or provoke a mistrial “is exacting.” Phillips v. Court of Common
Pleas, Hamilton Cty., Ohio, 668 F.3d 804, 811 (6th Cir. 2012)
(quoting Martinez v. Caldwell, 644 F.3d 238, 243 (5th Cir. 2011)).
“Prosecutorial conduct that might be viewed as harassment or
overreaching, even if sufficient to justify a mistrial on defendant’s
motion, ... does not bar retrial absent intent on the part of the
prosecutor to subvert the protections afforded by the Double
Jeopardy Clause.” Id., (quoting Kennedy, 456 U.S. at 675–76). The
relevant question is the prosecutor’s intent. “Intent generally is
inferred from objective facts and circumstances.” Id. A prosecutor’s
negligence in preparing the case for trial, which may lead to a
15

APP 033

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1964

Page 16 of 30

mistrial, “is not enough to meet the narrow exception to retrial
recognized in Kennedy.” Phillips, 668 F.3d at 813.
As an initial matter, petitioner points to the fact that the trial
judge, in declaring a mistrial, found that the prosecutor had
engaged in misconduct by questioning Detective Brooks about
petitioner’s pre-arrest silence and by making comments which
suggested that the prosecutor did this because his case was going
badly.
The Michigan Court of Appeals rejected petitioner’s claim,
finding that the prosecutor did not engage in misconduct by asking
this question because it was permissible to inquire into petitioner’s
pre-arrest silence. A deferential standard of review applies to the
Michigan Court of Appeals’ rejection of petitioner’s double jeopardy
claim. Aceval v. MacLaren, 578 F. App’x. 480, 482–83 (6th Cir.
2014), as amended (Sept. 15, 2014).
At the time of petitioner’s trial, the Supreme Court held that
use of a defendant’s pre-arrest silence for impeachment purposes
does not violate the Fifth Amendment right against selfincrimination or the Fourteenth Amendment right to due process.
Jenkins v. Anderson, 447 U.S. 231, 238–39 (1980). At the time of
petitioner’s trial, the Supreme Court had yet to rule whether the
use of a defendant’s pre-arrest silence as substantive evidence
violated a defendant’s constitutional rights, although the Sixth
16

APP 034

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1965

Page 17 of 30

Circuit had so held. See Combs v. Coyle, 205 F.3d 269, 282–83 (6th
Cir. 2000). However, the Sixth Circuit acknowledged that the
Supreme Court in Jenkins never addressed the issue of whether the
use of pre-arrest silence as substantive evidence violated the Fifth
Amendment. Id. at 281. The Sixth Circuit further noted that the
federal circuits that had considered the issue were “equally divided”
over whether a defendant’s pre-arrest silence could be used as
substantive evidence of guilt. Combs, 205 F. 3d at 282 (collecting
cases). Michigan courts at the time of petitioner’s trial did allow
pre-arrest silence to be used as substantive evidence of guilt. The
Supreme Court has since held that prosecutors may use a
defendant’s pre-arrest silence as substantive evidence of his or her
guilt so long as the defendant did not expressly invoke his or her
right to remain silent. Salinas v. Texas, 133 S. Ct. 2174, 2179, 2184
(2013); see also Abby v. Howe, 742 F.3d 221, 228 (6th Cir. 2014).
The Michigan Court of Appeals concluded that the prosecutor
did not commit misconduct by questioning Detective Brooks about
petitioner’s pre-arrest silence because this silence could have been
used either as impeachment or substantive evidence. The Supreme
Court’s decision in Kennedy “does not dispense with the
requirement that a double jeopardy claim be based on prosecutorial
misconduct, but instead acknowledges the requirement.” United
States v. Jordan, 429 F.3d 1032, 1038 (11th Cir. 2005). “Absent
17

APP 035

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1966

Page 18 of 30

prosecutorial misconduct sufficient to justify a mistrial on a
defendant’s motion, there is no double jeopardy.” Id.
In the present case, the prosecutor did not commit misconduct
by questioning Detective Brooks about her desire to have
questioned petitioner about the shooting prior to the arrest. At a
minimum, the prosecutor appears from his argument to have had
at least a good faith belief that such a question was relevant and
admissible. Because the prosecutor had a good faith belief in the
admissibility of petitioner’s pre-arrest silence, the trial court and
the Michigan Court of Appeals both reasonably concluded that the
prosecutor had not intended to provoke a mistrial, so as to bar
petitioner’s re-prosecution. See United States v. Calderon, 618 F. 2d
88, 90 (9th Cir. 1980).
Petitioner argues that even if his pre-arrest silence could have
been admissible, the trial judge had ruled in his case that the
prosecutor could not ask questions about this subject. Petitioner
argues that the prosecutor’s disregard of the judge’s order evinced
an intent to goad a mistrial, which should bar any re-trial.
The fact that the prosecutor ignored the court’s order to
refrain from asking questions about petitioner’s pre-arrest silence
would not entitle petitioner to relief absent any additional evidence
that the prosecutor intended to provoke petitioner into requesting
a mistrial. See United States v. Dugue, 690 F.3d 636, 638 (5th Cir.
18

APP 036

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1967

Page 19 of 30

2012); see also People v. Copeland, 127 A.D. 2d 846, 847, 511 N.Y.S.
2d 949, 950 (1987) (Prosecutor’s alleged intentional disregard of
trial court’s instructions, in repeatedly referring to defendant’s
silence following arrest, did not support inference that prosecutor
intended to provoke defendant’s motion for mistrial; accordingly,
prosecutor’s misconduct, though reversible error, did not require
barring of retrial on ground of double jeopardy).
At most, the prosecutor’s conduct here was overzealous.
There is no Supreme Court caselaw “that would bar retrial on
double jeopardy grounds when the prosecutorial misconduct in the
first trial aimed only to secure a conviction.” Aceval v. MacLaren,
578 F. App’x. at 483 (citing Smith v. Coleman, 521 F. App’x. 444,
449 (6th Cir. 2013)).
At best, petitioner has shown that the question of whether the
prosecutor intended to goad the court into granting a mistrial, such
that petitioner’s retrial should have been barred by the Double
Jeopardy Clause, presents a close question that could be decided
either way. This fact “militates against the conclusion” that the
Michigan Court of Appeals’ “application of the relevant United
States Supreme Court precedent or its determination of the facts
was objectively unreasonable.” Davis v. Lafler, 658 F. 3d 525, 535
(6th Cir. 2011) (quoting Lopez v. Wilson, 426 F. 3d 339, 358 n. 1 (6th
Cir. 2005) (en banc) (Cole, J., concurring) (internal quotation marks
19

APP 037

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1968

Page 20 of 30

omitted). Therefore, petitioner has failed to meet the burden for
habeas relief on Double Jeopardy grounds.
Claim # 2: Sufficiency of Evidence
Petitioner contends that there was insufficient evidence
presented to rebut his self-defense claim.
Under Michigan law, a person acts lawfully in self-defense if
he or she honestly and reasonably believes that he or she is in
danger of serious bodily harm or death, as judged by the
circumstances as they appeared to the defendant at the time of the
act. Blanton v. Elo, 186 F. 3d 712, 713, fn. 1 (6th Cir. 1999) (citing
to People v. Heflin, 434 Mich. 482, 456 N.W. 2d 10 (1990)).
Petitioner’s claim is non-cognizable on habeas review. Under
Michigan law, self-defense is an affirmative defense. See People v.
Dupree, 486 Mich. 693, 704, 712 (2010). “An affirmative defense,
like self-defense, ‘admits the crime but seeks to excuse or justify its
commission. It does not negate specific elements of the crime.’”
People v. Reese, 491 Mich. 127, 155, n. 76 (2012) (quoting Dupree,
486 Mich. at 704, n. 11). Although Michigan law requires the
prosecutor to disprove a claim of self-defense (see People v. Watts,
61 Mich. App. 309, 311 (1975)), “[p]roof of the nonexistence of all
affirmative defenses has never been constitutionally required....”
See Smith v. United States, 568 U.S. 106, 110 (2013) (quoting
Patterson v. New York, 432 U.S. 197, 210 (1977)). The Supreme
20

APP 038

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1969

Page 21 of 30

Court explained why the prosecution does not have to disprove selfdefense beyond a reasonable doubt:
When the prosecution has made out a prima facie case
and survives a motion to acquit, the jury may
nevertheless not convict if the evidence offered by the
defendant raises any reasonable doubt about the
existence of any fact necessary for the finding of guilt.
Evidence creating a reasonable doubt could easily fall
far short of proving self-defense by a preponderance of
the evidence.
Martin v. Ohio, 480 U.S. 228, 234 (1987). While the prosecution
“must prove guilt beyond a reasonable doubt with respect to every
element of the offense charged … they may place on defendants the
burden of proving affirmative defenses.” See Gilmore v. Taylor, 508
U.S. 333, 341 (1993) (citing Martin v. Ohio, 480 U.S. 228
(1987); Patterson v. New York, 432 U.S. 197 (1977)). The Sixth
Circuit also observed this standard. Allen v. Redman, 858 F. 2d
1194, 1197 (6th Cir. 1988) (habeas review of sufficiency-of-theevidence claims is limited to elements of the crimes as defined by
state law).
For these reasons, “the due process ‘sufficient evidence’
guarantee does not implicate affirmative defenses, because proof
supportive of an affirmative defense cannot detract from proof
beyond a reasonable doubt that the accused had committed the
requisite elements of the crime.” Caldwell v. Russell, 181 F. 3d 731,

21

APP 039

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1970

Page 22 of 30

740 (6th Cir. 1999); overruled on other grounds by Lindh v. Murphy,
521 U.S. 320 (1997). Petitioner’s claim that the prosecutor failed to
disprove his affirmative defense of self-defense is non-cognizable on
habeas review. Id.; Allen v. Redman, 858 F. 2d at 1200.
Moreover, even if petitioner’s claim was cognizable, petitioner
would not be entitled to relief.
It is beyond question that “the Due Process Clause protects
the accused against conviction except upon proof beyond a
reasonable doubt of every fact necessary to constitute the crime
with which he is charged.” In Re Winship, 397 U.S. 358, 364 (1970).
But the crucial inquiry in reviewing a sufficiency of the evidence
claim is, “whether the record evidence could reasonably support a
finding of guilt beyond a reasonable doubt.” Jackson v. Virginia,
443 U.S. 307, 318 (1979). A reviewing court does not have to ask
itself “whether it believes that the evidence at the trial established
guilt beyond a reasonable doubt.” Id. (quoting Woodby v.
Immigration & Naturalization Serv., 385 U.S. 276, 282 (1966).
“Instead, the relevant question is whether, after viewing the
evidence in the light most favorable to the prosecution, any rational
trier of fact could have found the essential elements of the crime
beyond a reasonable doubt.” Jackson, 443 U.S. at 318–19 (citing
Johnson v. Louisiana, 406 U.S. 356, 362 (1972)).

22

APP 040

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1971

Page 23 of 30

A federal court may not overturn a state court decision that
rejects a sufficiency of the evidence claim merely because the
federal court disagrees with the state court’s resolution of that
claim. Instead, a federal court may grant habeas relief only if the
state court decision was an objectively unreasonable application of
the Jackson standard. See Cavazos v. Smith, 565 U.S. 1, 2 (2011).
“Because rational people can sometimes disagree, the inevitable
consequence of this settled law is that judges will sometimes
encounter convictions that they believe to be mistaken, but that
they must nonetheless uphold.” Id. Indeed, for a federal court
reviewing a state court conviction, “the only question under
Jackson is whether that finding was so insupportable as to fall
below the threshold of bare rationality.” Coleman v. Johnson, 566
U.S. 650, 656 (2012). A state court’s determination that the
evidence does not fall below that threshold is entitled to
“considerable deference under [the] AEDPA.” Id.
A federal court reviewing a state court conviction on habeas
review that is “faced with a record of historical facts that supports
conflicting inferences must presume—even if it does not
affirmatively appear in the record—that the trier of fact resolved
any such conflicts in favor of the prosecution and must defer to that
resolution.” Cavazos, 565 U.S. at 7 (quoting Jackson, 443 U.S. at
326).
23

APP 041

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1972

Page 24 of 30

Petitioner does not challenge the elements of the crimes here
but argues that the prosecution failed to disprove his self-defense
claim because the victims themselves hid or tried to conceal the fact
that they had weapons on the night in question as well as the fact
that the prosecution witnesses’ testimony was often inconsistent or
contradictory. Although there may have been some evidence to
support petitioner’s self-defense claim, “in light of the deference to
be accorded to state-court factfinding under § 2254(e), as well as the
traditional deference accorded to [the factfinder’s] resolution of
disputed factual issues,” petitioner is unable to show that the
Michigan Court of Appeals’ unreasonably determined that the
prosecutor disproved petitioner’s self-defense claim. See Seymour v.
Walker, 224 F.3d 542, 552 (6th Cir. 2000). Petitioner is not entitled
to relief on his second claim.
Claim # 3: Prosecutorial Misconduct
Petitioner

contends

that

the

prosecutor

committed

misconduct during his closing argument at petitioner’s retrial by
referring to petitioner’s pre-arrest silence.
“Claims

of

prosecutorial

misconduct

are

reviewed

deferentially on habeas review.” Millender v. Adams, 376 F.3d 520,
528 (6th Cir. 2004) (citing Bowling v. Parker, 344 F. 3d 487, 512
(6th Cir. 2003)). A prosecutor’s improper comments will be held to
violate a criminal defendant’s constitutional rights only if they “‘so
24

APP 042

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1973

Page 25 of 30

infected the trial with unfairness as to make the resulting
conviction a denial of due process.’” Darden v. Wainwright, 477 U.S.
168, 181 (1986) (quoting Donnelly v. DeChristoforo, 416 U.S. 637,
643 (1974)). To obtain habeas relief on a prosecutorial misconduct
claim, a habeas petitioner must show that the state court’s rejection
of his or her prosecutorial misconduct claim “was so lacking in
justification that there was an error well understood and
comprehended in existing law beyond any possibility for fairminded
disagreement.” Parker v. Matthews, 567 U.S. 37, 48 (2012) (quoting
Harrington, 562 U.S. at 103).
Petitioner first points to the prosecutor’s comments:
And then [defendant] hid out for four months
before the Fugitive Apprehension Team finally
found him in another county. Does that sound to
you like he had an honest and reasonable belief
that he had to do what he did?
11/26/2012 Tr., ECF No. 10-9, PageID.1374.
Petitioner also claims that these remarks were impermissible:
[Defendant] also admitted he ran away, he spent a
night in the alley; that he either threw away or lost
the murder weapon that night; that he talked to
lawyers almost right away; that he didn’t turn
himself in; that he didn’t reach out to anybody in
law enforcement prior to his arrest and say,
[”H]ey, you got this thing wrong. I know you’re
looking for me. You don’t know what’s going on. [”]

25

APP 043

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1974

Page 26 of 30

He agreed to [sic] all of that. He wants us to believe
he did that on advice of counsel?
ECF No. 10-9, PageID.1422.
The Michigan Court of Appeals rejected petitioner’s claim,
finding that the comments about petitioner’s pre-arrest silence
were permissible to impeach his self-defense claim. People v.
Wooten, 2014 WL 2931934, at *7.
As mentioned in addressing petitioner’s first claim, the use of
a defendant’s pre-arrest silence for impeachment purposes does not
violate the Fifth Amendment right against self-incrimination or the
Fourteenth Amendment right to due process. Jenkins v. Anderson,
447 U.S. at 238–39. A defendant’s pre-arrest silence may even be
used as substantive evidence of his guilt so long as the defendant
did not expressly invoke his right to remain silent. Salinas v. Texas,
133 S. Ct. at 2179, 2184. The prosecutor’s references to petitioner’s
pre-arrest silence were not improper.
Petitioner relies on Girts v. Yanai, 501 F. 3d 743 (6th Cir.
2007) to argue that the prosecutor’s statements were improper.
Girts is not relevant to petitioner’s case, because that case involved
direct references to the defendant’s failure to testify. In Girts, the
prosecutor quoted the defendant and stated “these are his words.
And the words you heard from these folks supplied by him are
unrefuted, and they are uncontroverted. There has been no evidence

26

APP 044

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1975

Page 27 of 30

offered to say these people are incorrect. None at all.” Girts, 501
F.3d at 755 (emphasis original). The Sixth Circuit ruled that by
indicating that Girts was the only person that could explain the
crime, the prosecution “highlighted the fact that Petitioner did not
testify and attached a negative connotation to the exercise of the
Fifth Amendment right to remain silent.” Id. at 756.
In the present case, petitioner testified and claimed he acted
in self-defense. It is permissible for a prosecutor to refer to a
defendant’s silence if it is a fair reply to a defense theory or
argument. Hall v. VasBinder, 563 F. 3d 222, 233 (6th Cir. 2009)
(citing United States v. Robinson, 485 U.S. 25, 34 (1988); Lockett v.
Ohio, 438 U.S. 586, 595 (1978)). Indeed, in the absence of any
indication that a criminal defendant had received his Miranda
warnings, the use of even post-arrest silence to impeach a
defendant’s credibility when that defendant chooses to take the
witness stand does not violate the Due Process Clause. See Fletcher
v. Weir, 455 U.S. 603, 606–07 (1982). In Fletcher, the Supreme
Court held that it was not unconstitutional for a prosecutor to use
the defendant’s post-arrest silence for impeachment purposes,
where the defendant testified at trial that he stabbed the victim in
self-defense and that the stabbing was accidental. Id. In the present
case, petitioner testified he shot the victims in self-defense. There
was nothing improper about impeaching his testimony with any
27

APP 045

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1976

Page 28 of 30

pre- or post-arrest silence. Petitioner is not entitled to relief on his
third claim.
Claim # 4: Repackaging of Claims 1 and 3
Petitioner’s fourth claim is a repackaging of the arguments he
makes in claims 1 and 3, that the judge should have dismissed the
case with prejudice because the prosecutor through his misconduct
intentionally provoked defense counsel into requesting a mistrial
(claim 1), and that the prosecutor committed misconduct during his
closing argument at retrial by referring to petitioner’s pre-arrest
silence (claim 3). For the reasons set out in the sections on those
claims above, Petitioner is not entitled to relief on his fourth claim.
IV.

Conclusion
Before petitioner may appeal this Court’s dispositive decision,

“a circuit justice or judge” must issue a certificate of appealability.
See 28 U.S.C. § 2253(c)(1)(A); FED. R. APP. P. 22(b). A certificate of
appealability may issue “only if the applicant has made a
substantial showing of the denial of a constitutional right.” 28
U.S.C. § 2253(c)(2). Because the Court has rejected petitioner’s
habeas claims on the merits, to satisfy § 2253(c)(2), petitioner must
show “that reasonable jurists could debate whether (or, for that
matter, agree that) the petition should have been resolved in a
different manner or that the issues presented were adequate to
deserve encouragement to proceed further.” Slack v. McDaniel, 529
28

APP 046

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1977

Page 29 of 30

U.S. 473, 484 (2000) (internal quotation marks and citation
omitted).
Although the Court believes that its decision in denying
habeas relief is correct, the Court grants petitioner a certificate of
appealability on his first claim. The trial judge granted petitioner a
mistrial after finding that the prosecutor engaged in misconduct.
Although the judge refused to dismiss the case with prejudice, the
judge did at times imply that the prosecutor’s conduct was
intentional. Petitioner is entitled to a certificate of appealability on
his first claim because he established that reasonable jurists could
debate this Court’s decision that there was no misconduct.
The Court denies petitioner a certificate of appealability with
respect to his remaining claims because jurists of reason would not
find this Court’s resolution of the claims to be debatable.
Because this Court grants a certificate of appealability, any
appeal would be being undertaken in good faith; petitioner is
granted leave to appeal in forma pauperis. See Brown v. United
States, 187 F. Supp. 2d 887, 893 (E.D. Mich. 2002).

29

APP 047

Case 4:17-cv-10014-TGB-RSW ECF No. 19 filed 04/17/19

PageID.1978

Page 30 of 30

Accordingly,

(1)

The Petition for a Writ of Habeas Corpus is DENIED WITH
PREJUDICE.

(2)

A Certificate of Appealability is GRANTED on petitioner’s
first claim but DENIED with respect to his remaining claims.

(3)

Petitioner is GRANTED Leave to appeal in forma pauperis.

IT IS SO ORDERED.

Dated: April 17, 2019

s/Terrence G. Berg
TERRENCE G. BERG
UNITED STATES DISTRICT JUDGE
Certificate of Service

I hereby certify that this Order was electronically submitted
on April 17, 2019, using the CM/ECF system, which will send
notification to each party.
s/Amanda Chubb
Case Manager

30

APP 048

Case 4:17-cv-10014-TGB-RSW ECF No. 10-12 filed 07/10/17

PageID.1505

Page 1 of 87

STATE OF MICHIGAN
COURT OF APPEALS

PEOPLE OF THE STATE OF MICHIGAN,

UNPUBLISHED
June 26, 2014

Plaintiff-Appellee,
v

No. 314315
Wayne Circuit Court
LC No. 11-012794-FC

JOHN OLIVER WOOTEN,
Defendant-Appellant.

Before: MARKEY, P.J., and SAWYER and WILDER, JJ.
PER CURIAM.
Defendant appeals as of right his jury trial convictions of second-degree murder, MCL
750.317, assault with intent to murder, MCL 750.83, felon in possession of a firearm (“felon-inpossession”), MCL 750.224f, and possession of a firearm during the commission of a felony
(“felony-firearm”), MCL 750.227b. He was sentenced, as a second habitual offender, MCL
769.11, to 30 to 50 years’ imprisonment for the second-degree murder conviction, 30 to 50
years’ imprisonment for the assault with intent to murder conviction, four to seven years’
imprisonment for the felon-in-possession conviction, and five years’ imprisonment for the
felony-firearm conviction. We affirm.
Defendant first argues that, when the trial court granted his motion for a mistrial, it erred
when it did not do so with prejudice, which would have barred retrial on double-jeopardy
grounds. We disagree.
To preserve appellate review of a double-jeopardy violation, a defendant must object at
the trial court level. See People v Meshell, 265 Mich App 616, 628; 696 NW2d 754 (2005).
Because defendant did not object to the trial court’s decision to grant the motion for a mistrial
without prejudice, this issue is not preserved. However, double-jeopardy issues “present[] a
significant constitutional question that will be considered on appeal regardless of whether the
defendant raised it before the trial court.” People v McGee, 280 Mich App 680, 682; 761 NW2d
743 (2008). This Court reviews “an unpreserved claim that a defendant’s double jeopardy rights
have been violated for plain error that affected the defendant’s substantial rights, that is, the error
affected the outcome of the lower court proceedings. Reversal is appropriate only if the plain
error resulted in the conviction of an innocent defendant or seriously affected the fairness,
integrity, or public reputation of the judicial proceedings.” McGee, 280 Mich App at 682. The
trial court’s factual findings regarding whether the prosecutor “intended to goad the defendant
-1-

APP 049

Case 4:17-cv-10014-TGB-RSW ECF No. 10-12 filed 07/10/17

PageID.1506

Page 2 of 87

into moving for a mistrial” are reviewed for clear error. People v Dawson, 431 Mich 234, 258;
427 NW2d 886 (1988). “A finding is clearly erroneous when, although there is evidence to
support it, the reviewing court is left with a definite and firm conviction that a mistake has been
made.” People v Mullen, 282 Mich App 14, 22; 762 NW2d 170 (2008).
“No person shall be . . . subject for the same offence to be twice put in jeopardy of life or
limb.” US Const, Am V. “No person shall be subject for the same offense to be twice put in
jeopardy.” Const 1963, art 1, § 15. The Michigan Constitution’s protection against double
jeopardy is set forth in the same test used by federal courts, as stated in Blockburger v United
States, 284 US 299, 304; 52 S Ct 180; 76 L Ed 306 (1932): “where the same act or transaction
constitutes a violation of two distinct statutory provisions, the test to be applied to determine
whether there are two offenses or only one, is whether each provision requires proof of a fact
which the other does not.” People v Smith, 478 Mich 292, 311; 733 NW2d 351 (2007).
“When a mistrial is declared, retrial is permissible under double jeopardy principles
where manifest necessity required the mistrial or the defendant consented to the mistrial and the
mistrial was caused by innocent conduct on the part of the prosecutor or judge, or by factors
beyond their control.” People v Echavarria, 233 Mich App 356, 363; 592 NW2d 737 (1999).
“Retrials are an exception to the general double jeopardy bar. Where a mistrial results from
apparently innocent or even negligent prosecutorial error, or from factors beyond his control, the
public interest in allowing a retrial outweighs the double jeopardy bar.” People v Tracey, 221
Mich App 321, 326; 561 NW2d 133 (1997) (quoting Dawson, 431 Mich at 257). “The balance
tilts, however, where the judge finds, on the basis of the ‘objective facts and circumstances of the
particular case,’ that the prosecutor intended to goad the defendant into moving for a mistrial.”
Id. (quoting Dawson, 431 Mich at 257). “Prosecutorial conduct that might be viewed as
harassment or overreaching, even if sufficient to justify a mistrial on [the] defendant’s motion . .
. does not bar retrial absent intent on the part of the prosecutor to subvert the protections afforded
by the Double Jeopardy Clause.” Oregon v Kennedy, 456 US 667, 675-676; 102 S Ct 2083; 72 L
Ed 2d 416 (1982).
At the first trial, the officer-in-charge, LaTonya Brooks, testified during crossexamination that she was not aware before trial that a second gun had been “present and had
been pulled” by Alfonso Thomas, the deceased victim. During redirect examination, the
prosecutor attempted to rehabilitate Brooks by asking questions prompting answers to the effect
that there was no evidence of a second gun at the scene of the shooting that would have directed
the investigation toward Anthony Gary’s pistol. The prosecutor then asked, “In this case, would
you have enjoyed talking to the [d]efendant?”
Defendant immediately objected, and an on-the-record sidebar conference was held at
which the prosecutor explained that he was attempting to rebut defendant’s theory that Thomas
fired Gary’s semiautomatic pistol, which had not been tested by or turned into police, toward
defendant, causing defendant to fire back in self-defense. Defendant moved for a mistrial,
arguing that the question violated his Fifth Amendment right against compelled selfincrimination, and that the prosecution deliberately asked the improper question so that
defendant’s forthcoming motion would be granted and the prosecution “would have a second
strike” at the case. The prosecution responded that impeaching a defendant with evidence of his
prearrest silence was permissible where “it would have been natural for a defendant to come
-2-

APP 050

Case 4:17-cv-10014-TGB-RSW ECF No. 10-12 filed 07/10/17

PageID.1507

Page 3 of 87

forward.” Because defendant implied, in the course of cross-examining Brooks, that she failed
to obtain relevant facts about Gary’s gun from Gary and Omar Madison, defendant opened the
door to the suggestion that defendant was equally capable of providing Brooks with that
information, the prosecution argued.
The trial court found that the facts did not create a situation in which it would have been
natural for defendant to come forward because the “charges brought against the defendant were
probably almost instantaneous, and then he was not . . . found until December 3, 2011, which
was almost . . . four months later.” The judge granted defendant’s motion for a mistrial without
prejudice, explaining:
Sometimes when we wind up getting involved in the give and take of a
trial, the heat of combat overwhelms our rational decision making processes, and .
. . that may very well have been the situation today. I don’t believe that the last
question that was posed to [Brooks] was directly intended to impeach the
credibility of the defendant. As I said, even though [defendant] had not even
testified as yet, or even made an election in that regard, or was consciously
thought of by the prosecution as calling into question the defendant’s right to
remain silent guaranteed to him under the Fifth Amendment to the Constitution.
So, I’m not going to dismiss this case with prejudice.
The trial court did not clearly err when it found that the prosecutor did not intend to
create the conditions sufficient to justify declaration of a mistrial. Defendant’s argument to the
contrary is premised on the theory that the “first trial was not going well” for the prosecution
because it “had no idea what its own witnesses were going to say” and the police “had not . . .
investigated the evidence found at the scene, including an empty gun holster.” In an effort to
buy more time, defendant argues, the prosecutor deliberately asked Brooks a question,
concerning defendant’s failure to come forward during the investigation, that violated
defendant’s constitutional right against compelled self-incrimination.
On appeal, the prosecution argues that the question was not designed to draw a motion
for a mistrial, and further that the question did not violate defendant’s constitutional rights
because it concerned his prearrest silence. “No person . . . shall be compelled in any criminal
case to be a witness against himself.” US Const, Am V; Const 1963, art 1, § 17. This privilege
is violated when the prosecution comments on a defendant’s postarrest, post-Miranda1 silence.
Doyle v Ohio, 426 US 610, 611; 96 S Ct 2240; 49 L Ed 2d 91 (1976); People v Borgne, 483
Mich 178, 186-187; 768 NW2d 290 (2009). However, a defendant’s prearrest silence, as well as
his silence after arrest but before he receives Miranda warnings, may be used against him
because the “use of a defendant’s silence only deprives a defendant of due process when the
government has given the defendant a reason to believe both that he has a right to remain silent
and that his invocation of that right will not be used against him.” Fletcher v Weir, 455 US 603,
606-607; 102 S Ct 1309; 71 L Ed 2d 490 (1982); Jenkins v Anderson, 447 US 231, 240; 100 S Ct

1

Miranda v Arizona, 384 US 436; 86 S Ct 1602; 16 L Ed 2d 694 (1966).

-3-

APP 051

Case 4:17-cv-10014-TGB-RSW ECF No. 10-12 filed 07/10/17

PageID.1508

Page 4 of 87

2124; 65 L Ed 2d 86 (1980) (“[N]o governmental action induced [the defendant] to remain silent
before arrest.”); Borgne, 483 Mich at 187-188.
“Neither the Fifth Amendment nor the Michigan Constitution preclude[s] the use of
prearrest silence for impeachment purposes.” People v Clary, 494 Mich 260, 266; 833 NW2d
308 (2013) (internal punctuation omitted). “[W]here a defendant has received no Miranda
warnings, no constitutional difficulties arise from using the defendant’s silence before or after his
arrest as substantive evidence unless there is reason to conclude that his silence was attributable
to the invocation of the defendant’s Fifth Amendment privilege.” People v Solmonson, 261
Mich App 657, 665; 683 NW2d 761 (2004).
Defendant appears to take for granted the fact that the prosecutor violated his right
against compelled self-incrimination, citing case law holding that a retrial is barred if a
defendant’s motion for a mistrial is prompted by prosecutorial misconduct, but offering no
authority to support his position that the prosecutor’s question to Brooks—“In this case, would
you have enjoyed talking to the [d]efendant?”—actually constituted misconduct or was contrary
to case law interpreting the Fifth Amendment and its counterpart in the Michigan Constitution.
“An appellant may not merely announce his position and leave it to this Court to discover and
rationalize the basis for his claims, nor may he give only cursory treatment with little or no
citation of supporting authority.” People v Payne, 285 Mich App 181, 195; 774 NW2d 714
(2009).
Because the prosecutor’s question referred to defendant’s failure to present investigators
with an explanation that he acted in self-defense, that is, before he was arrested or received
Miranda warnings, and because there was no indication that he was invoking his Fifth
Amendment right to silence, evidence of defendant’s prearrest silence was admissible as
substantive evidence of his guilt, subject to the Michigan Rules of Evidence. People v Hackett,
460 Mich 202, 214; 596 NW2d 107 (1999) (“The issue of prearrest silence is one of relevance.”);
Solmonson, 261 Mich App at 665. Defendant’s failure to come forward was especially relevant
following defendant’s cross-examination of Brooks wherein the implication of his line of
questions was that defendant was falsely accused as the result of an inept police investigation
that failed to uncover the gun that was fired toward defendant. Because the prosecutor’s
question was proper, the question was not misconduct, and, therefore, there was no basis upon
which to grant defendant’s motion for a mistrial with prejudice.
Defendant next argues that there was insufficient evidence to sustain his convictions of
second-degree murder and assault with intent to murder. We disagree.
Due process requires that the evidence must have shown the defendant’s guilt beyond a
reasonable doubt. People v Harverson, 291 Mich App 171, 175; 804 NW2d 757 (2010). This
Court examines the lower court record de novo, in the light most favorable to the prosecution, to
determine whether a rational trier of fact could have found that the evidence proved each element
of the crime beyond a reasonable doubt. Id.
“In order to convict a defendant of second-degree murder, the prosecution must prove:
(1) a death, (2) caused by an act of the defendant, (3) with malice, and (4) without justification or
excuse.” People v Roper, 286 Mich App 77, 84; 777 NW2d 483 (2009) (internal quotations
-4-

APP 052

Case 4:17-cv-10014-TGB-RSW ECF No. 10-12 filed 07/10/17

PageID.1509

Page 5 of 87

omitted). “Malice is defined as the intent to kill, the intent to cause great bodily harm, or the
intent to do an act in wanton and wilful [sic] disregard of the likelihood that the natural tendency
of such behavior is to cause death or great bodily harm.” Id. “Malice may be inferred from
evidence that the defendant intentionally set in motion a force likely to cause death or great
bodily harm.” Id. (internal quotations omitted). Malice may likewise be “inferred from the use
of a deadly weapon.” People v McMullan, 284 Mich App 149, 153; 771 NW2d 810 (2009),
aff’d 488 Mich 922 (2010). “The offense of second-degree murder does not require an actual
intent to harm or kill, but only the intent to do an act that is in obvious disregard of lifeendangering consequences.” Roper, 286 Mich App at 84.
“The elements of assault with intent to commit murder are: (1) an assault, (2) with an
actual intent to kill, (3) which, if successful, would make the killing murder.” People v Brown,
267 Mich App 141, 147; 703 NW2d 230 (2005) (internal quotations and footnote omitted). The
malice element of second-degree murder is necessary, but not sufficient, to satisfy the intent
element of assault with intent to murder. Brown, 267 Mich App at 148-149.
Defendant’s only argument against the sufficiency of the evidence is that the
prosecution’s witnesses “were hiding or trying to hide the fact that they were carrying or using
firearms” on the night of the shooting, and that their testimony was “often incomplete and
inconsistent.”2 However, the weight of the evidence, the credibility of witnesses, and what
inferences can be fairly drawn from the evidence are questions that are resolved by the jury.
People v Eisen, 296 Mich App 326, 331; 820 NW2d 229 (2012); People v Kissner, 292 Mich
App 526, 534; 808 NW2d 522 (2011).
There was sufficient evidence for a rational trier of fact to have found each element of
second-degree murder and assault with intent to murder proved beyond a reasonable doubt. Four
witnesses saw defendant shoot Thomas. Madison said that defendant and Thomas were
approximately four feet apart. The witnesses agreed that defendant fired at least three and as
many as five shots. Defendant threatened Madison with a gun after a confrontation
approximately two weeks before the shooting involving defendant’s having thrown a drink at
Madison, and, on the night of the shooting, was overheard making threatening comments relating
to robbing the club and repeatedly refused to be searched for weapons. Regarding the intent
element of assault with intent to murder, Brown, 267 Mich App at 147, the jury could rationally
have concluded that defendant bore a grudge against Madison—for the drink-throwing incident
two weeks before the shooting, for refusing to allow defendant to enter the club with his
revolver, and for physically removing him from the club upon his refusal to be searched—and
therefore had the requisite intent to kill Madison.
Notwithstanding the prosecution’s “burden of disproving the common law defense of
self-defense beyond a reasonable doubt,” People v Dupree, 486 Mich 693, 710; 788 NW2d 399
2

Defendant does not cite to the lower court record in this issue. “Facts stated must be supported
by specific page references to the transcript, the pleadings, or other document or paper filed with
the trial court.” MCR 7.212(C)(7); People v Petri, 279 Mich App 407, 413; 760 NW2d 882
(2008).

-5-

APP 053

Case 4:17-cv-10014-TGB-RSW ECF No. 10-12 filed 07/10/17

PageID.1510

Page 6 of 87

(2010), defendant’s theory of self-defense was implausible. It began with his admission that he
refused to be searched for no apparent reason, continued with his statement that Madison then
grabbed him for no apparent reason, and concluded with his failure, for approximately four
months, to inform police that he acted in self-defense and that Gary held the gun that defendant
maintained was used to fire at him. Reviewing the evidence in the light most favorable to the
prosecution, a rational trier of fact could have found that the elements of second-degree murder
and assault with intent to murder were proved beyond a reasonable doubt.
Defendant next argues that the prosecutor committed misconduct during closing
argument by twice referring to defendant’s prearrest silence. We disagree.
“In order to preserve an issue of prosecutorial misconduct, a defendant must
contemporaneously object.” People v Bennett, 290 Mich App 465, 475; 802 NW2d 627 (2010).
This issue is not preserved because defendant did not object during closing argument.
“Unpreserved claims of prosecutorial misconduct are reviewed for plain error affecting
substantial rights.” People v Brown, 294 Mich App 377, 382; 811 NW2d 531 (2011). A plain
error affects a defendant’s substantial rights if the error affected the outcome of the proceedings.
People v Vaughn, 491 Mich 642, 665; 821 NW2d 288 (2012). “Reversal is warranted only when
plain error resulted in the conviction of an actually innocent defendant or seriously affected the
fairness, integrity, or public reputation of judicial proceedings.” People v Unger, 278 Mich App
210, 235; 749 NW2d 272 (2008). Reversal is not required “where a curative instruction could
have alleviated any prejudicial effect. Curative instructions are sufficient to cure the prejudicial
effect of most inappropriate prosecutorial statements.” Id.
“Given that a prosecutor’s role and responsibility is to seek justice and not merely
convict, the test for prosecutorial misconduct is whether a defendant was denied a fair and
impartial trial.” People v Dobek, 274 Mich App 58, 63; 732 NW2d 546 (2007). Defendant
claims that a “prosecutor has a duty to not ask the jury to consider” a defendant’s silence, citing
no law in support of that statement.3 Although that is the general rule, Borgne, 483 Mich at 186187, the prosecution is entitled to use a defendant’s prearrest silence, both for impeachment
purposes and as substantive evidence of guilt, without offending the Fifth Amendment or the
Michigan Constitution. Clary, 494 Mich at 266; Solmonson, 261 Mich App at 665. The first
excerpt of closing argument to which defendant refers—“And then [defendant] hid out for four
months before the Fugitive Apprehension Team finally found him in another county. Does that
sound to you like he had an honest and reasonable belief that he had to do what he did?”—was
designed to impeach defendant’s credibility following his testimony that he acted in self-defense.
In the second excerpt defendant claims was erroneous, the prosecutor said:
[Defendant] also admitted he ran away, he spent a night in the alley; that
he either threw away or lost the murder weapon that night; that he talked to
lawyers almost right away; that he didn’t turn himself in; that he didn’t reach out

3

“Argument must be supported by citation to appropriate authority or policy.”
7.212(C)(7); Payne, 285 Mich App at 188.

MCR

-6-

APP 054

Case 4:17-cv-10014-TGB-RSW ECF No. 10-12 filed 07/10/17

PageID.1511

Page 7 of 87

to anybody in law enforcement prior to his arrest and say, [“H]ey, you got this
thing wrong. I know you’re looking for me. You don’t know what’s going on.[”]
He agreed to [sic] all of that. He wants us to believe he did that on advice of
counsel?
This was a proper use of defendant’s silence, before he was arrested and given Miranda
warnings, in response to his claim that he did not come forward for four months as a result of
speaking to a lawyer he did not retain. “[N]onverbal conduct by a defendant, a failure to come
forward, is relevant and probative for impeachment purposes when the court determines that it
would have been ‘natural’ for the person to have come forward with the exculpatory information
under the circumstances.” Clary, 494 Mich at 285 n 12. Because the prosecutor’s commentary
on defendant’s prearrest silence conformed to case law interpreting the constitutional right
against compelled self-incrimination, defendant has not demonstrated misconduct.
Affirmed.
/s/ Jane E. Markey
/s/ David H. Sawyer
/s/ Kurtis T. Wilder

-7-

APP 055

